                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                 Audit of NASA’s Cooperative
                Agreement with BioServe Space
                  Technologies - University of
                     Colorado at Boulder




                             OFFICE OF AUDITS
                                 AUDIT REPORT
IG-14-028                       AUGUST 4, 2014
(A-14-003-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

GAO          Government Accountability Office
ISS          International Space Station
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
OMB          Office of Management and Budget
PI           Principal Investigator
STS          Space Transportation System


                                                REPORT NO. IG-14-028
AUGUST 4, 2014




                                                                                             OVERVIEW

             AUDIT OF NASA’S COOPERATIVE AGREEMENT WITH
             BIOSERVE SPACE TECHNOLOGIES - UNIVERSITY OF
                        COLORADO AT BOULDER
                                                                                                The Issue

   Each year NASA awards grants and cooperative agreements to a variety of educational
   institutions – for fiscal year 2013, the Agency awarded $433 million in grants and
   $146 million in cooperative agreements. In September 2011, the NASA Office of
   Inspector General (OIG) reported that NASA did not have an adequate system of controls
   in place to ensure proper administration and management of the Agency’s grant program
   and, as a result, some grant funds were not used for their intended purposes.1 As a
   follow-on to that report, the OIG is conducting a series of audits examining particular
   NASA grants and cooperative agreements.

   In this report, we reviewed an approximately $3.6 million cooperative agreement NASA
   awarded to BioServe Space Technologies - University of Colorado at Boulder
   (BioServe). In April 2010, NASA’s Space Operations Mission Directorate issued an
   announcement soliciting offers and concepts for payload integration and operations
   services, support equipment, and instrumentation capabilities for utilization of the
   International Space Station (ISS) National Laboratory (National Lab).2 In response,
   BioServe submitted a proposal, and the Agency awarded the University a cooperative
   agreement – valued at $600,000 through August 31, 2011 – to conduct research on the
   National Lab examining the effects of microgravity on the plant species Jatropha curcas
   (Jatropha).3 Thereafter, NASA modified the agreement to include BioServe providing
   hardware and payload integration and operations services for the National Lab. Through
   February 2014, NASA issued 13 modifications to the cooperative agreement and
   increased the total award to $3,577,247.4



   1
       NASA OIG, “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011).
   2
       The “NASA Authorization Act of 2005,” Pub. L. No. 109-155 (2005), designated the U.S. segment of the
       ISS as the National Lab and directed NASA to increase utilization of the National Lab by other Federal
       entities and foster commercial interest in conducting research on the ISS.
   3
       Jatropha is a species of flowering plant native to Mexico and Central America that has a variety of
       potential uses, including in the production of biofuel and fertilizer.
   4
       Modifications 1, 2, 7, 9, and 13 were administrative modifications made to deobligate or reobligate
       funds, extend periods of performance, and update NASA points of contact, which did not require
       BioServe to provide new products or services. See Appendix B for a more detailed description of the
       items and services provided under the cooperative agreement.



REPORT NO. IG-14-028
                                                                                                         OVERVIEW



     Two of these modifications were for the development of a Space Automated Bioproduct
     Laboratory (bio lab) to enable commercial research and development aboard the ISS and
     a multi-well plate (multi-well) for research utilizing microorganisms.
              Modification 6. Development of the Space Automated Bioproduct Lab to Enable
               Commercial Research and Development on Board the International Space Station
               – BioServe is building a minimum of four bio lab units designed to eliminate
               acoustic noise, reduce crew time required for experiment access, be easy to use,
               and reduce temperature gradients inside of the ISS.
              Modification 12. Development of a Multi-well Plate for Research Utilizing
               Biosafety Level-2 Microorganisms Analyzed in the Molecular Probes (M5E) Plate
               Reader on Board the ISS – BioServe agreed to design, build, and test a 12-well
               format multi-well plate that can be used for a wide variety of cell culture and
               microbiology studies on board the ISS. BioServe agreed to deliver 6 engineering
               units and 30 multi-well plates.
     The objective of this audit was to determine whether BioServe used cooperative
     agreement funds for their intended purpose and whether costs the University claimed
     were allowable, reasonable, and in accordance with applicable laws, guidelines, and
     terms and conditions of the cooperative agreement. We also reviewed internal controls
     related to the administration and management of the agreement. Details of the audit’s
     scope and methodology, our review of internal controls, and a list of prior coverage are in
     Appendix A.

     Results

     We found BioServe spent cooperative agreement funds for their intended purposes and
     identified no questioned costs. However, we identified weaknesses in BioServe and NASA
     internal controls as they relate to the administration and management of the cooperative
     agreement. Specifically, BioServe requires an additional $520,000, or about 36 percent,
     more than the approved budget in order to complete development, delivery, integration,
     operations, and launch of the bio lab units and $75,000, or 15 percent, more to complete the
     multi-well plates.5 In addition, current project plans have BioServe delivering the products
     about 16 and 10 months, respectively, beyond the original schedule. These cost overruns and
     delays occurred because BioServe and NASA underestimated the complexity of the
     development effort and failed to identify all technical requirements when negotiating the
     cooperative agreement and because BioServe did not track and compare actual expenditures
     to approved project budgets. In our judgment, additional efforts are needed to better identify
     and price technical requirements and account for costs in this agreement. Failure to address
     these concerns increases the risk of cost and schedule overruns in the existing and any future
     cooperative agreements with BioServe.
     5
         BioServe requires $220,000 more than its approved budget in order to complete the originally proposed
         development and delivery of the bio lab units. In addition, BioServe later proposed and NASA approved
         an additional $300,000 to complete the required integration and operations and launch of the bio lab unit
         to the ISS.



ii                                                                                         REPORT NO. IG-14-028
OVERVIEW



                                                              Management Action

   To reduce the risk of further cost and schedule overruns, we recommended the Associate
   Administrator for Human Exploration and Operations in coordination with the Assistant
   Administrator for Procurement ensure NASA and BioServe do a better job identifying
   and understanding technical requirements when negotiating the cooperative agreement
   and the Agency improves its process for evaluating proposed costs so that approved
   budgets better approximate actual expenditures. In addition, we recommended the
   Associate Administrator require that, for all future awards, BioServe separately account
   for and report expenditures incurred for each project. Finally, we recommended the
   Associate Administrator monitor actual performance against the cost and schedule
   milestones NASA and BioServe negotiated for the remaining deliverables on the bio lab
   and multi-well projects.

   In response to a draft of our report, the Associate Administrator concurred with our
   recommendations and proposed corrective actions. We consider those actions responsive
   and will close the recommendations upon completion and verification of the actions. We
   incorporated management’s technical comments on our draft into the final report as
   appropriate. Management’s full response to the draft report is reprinted in Appendix C.




REPORT NO. IG-14-028                                                                          iii
AUGUST 4, 2014




                                                       CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 3

   RESULTS
      The Bio Lab and Multi-Well Projects Are Over Budget and
        Over Schedule _____________________________________ 4

   APPENDIX A
      Scope and Methodology ________________________________ 9
      Review of Internal Controls ____________________________ 11
      Prior Coverage ______________________________________ 12

   APPENDIX B
      Products and Services Provided by the
         Cooperative Agreement_____________________________ 14

   APPENDIX C
      Management Comments ______________________________ 16

   APPENDIX D
      Report Distribution ___________________________________ 18




REPORT NO. IG-14-028
AUGUST 4, 2014




                                                                                     INTRODUCTION


Background

   Since 1987, BioServe Space Technologies - University of Colorado at Boulder
   (BioServe) has partnered with NASA, industry, and other organizations to conduct
   ground- and space-based research to support the development of scientific technologies
   that both benefit human space exploration and have commercially viable Earth-based
   applications. Based in the University’s College of Engineering and Applied Sciences,
   BioServe is led by a Director and employs approximately 11 University faculty members
   assisted by graduate and undergraduate students. Hardware developed by BioServe has
   supported a wide variety of space life sciences, including molecular processes, cell and
   tissue culture, and the development and adaptation of various plants and organisms to
   microgravity. The University has flown payloads on the Space Shuttle, as well as the
   Russian Progress and Soyuz vehicles, and its payloads have been on the International
   Space Station (ISS) continuously since 2002.

   Cooperative Agreement. In April 2010, NASA’s Space Operations Mission Directorate
   issued an announcement soliciting offers and concepts for payload integration and
   operations services and support equipment and instrumentation capabilities for utilization
   of the International Space Station (ISS) National Laboratory (National Lab).6 In
   response, BioServe submitted a proposal, and the Agency awarded the University a
   cooperative agreement – valued at $600,000 through August 31, 2011 to conduct research
   on the National Lab examining the effects of microgravity on the plant species Jatropha
   curcas (Jatropha).7 Thereafter, NASA modified the agreement to include BioServe
   providing hardware and payload integration and operations services for the National Lab.
   Through February 2014, NASA issued 13 modifications to the cooperative agreement
   and increased the total award to $3,577,247.8 Two of these modifications were for
   development of a Space Automated Bioproduct Laboratory (bio lab) to enable
   commercial research and development aboard the ISS and a multi-well plate (multi-well)
   for research utilizing microorganisms.




   6
       The “NASA Authorization Act of 2005,” Pub. L. No. 109-155 (2005) designated the U.S. segment of the
       ISS as the National Lab and directed NASA to increase utilization of the National Lab by other Federal
       entities and foster commercial interest in conducting research on the ISS.
   7
       Jatropha is a species of flowering plant native to Mexico and Central America that has a variety of
       potential uses, including the production of biofuel and fertilizer.
   8
       Modifications 1, 2, 7, 9, and 13 were administrative modifications made to deobligate or reobligate
       funds, extend periods of performance, and update NASA points of contact and did not require BioServe
       to provide new products or services. See Appendix B for a more detailed description of the items and
       services provided under the cooperative agreement.



REPORT NO. IG-14-028                                                                                            1
                                                                                       INTRODUCTION



    Modification 6. Development of the Space
    Automated Bioproduct Lab to Enable Commercial                Figure 1. Bio Lab Unit
    Research and Development on Board the
    International Space Station – BioServe is building
    bio lab units to replace the Commercial Generic
    Bioprocessing Apparatus, which has a number of
    drawbacks and was originally designed to operate
    on the Space Shuttle. The bio lab units are
    designed to eliminate acoustic noise, reduce crew
    time required for experiment access, be easy to use,
    and reduce temperature gradients inside of the ISS.
    BioServe agreed to build a minimum of three flight
                                                          Source: BioServe.
    units that would be tested and flight certified. In
    addition, BioServe would build at least one engineering unit for safety, interface, and
    functional testing, as required. (See Figure 1.)

    Modification 12. Development of a Multi-well              Figure 2. 12-Well Version of the
    Plate for Research Utilizing Biosafety Level-2                    Multi-well Plate
    Microorganisms Analyzed in the Molecular
    Probes (M5E) Plate Reader on Board the
    ISS - BioServe agreed to design, build, and test a
    12-well format multi-well plate that can be used
    to enable a wide variety of cell culture and
    microbiology studies on board the ISS. These
    studies include vaccine screening, 3-D tissue
    growth, and cell biology. BioServe agreed to
    deliver 6 engineering units and 30 plates that
    could be distributed between flight and
    ground-control samples, as needed.                     Source: BioServe.
    (See Figure 2.)

    Pursuant to the cooperative agreement, BioServe was to deliver 3 bio lab flight units and
    30 multi-well plates by September 30, 2013, and March 31, 2014, respectively. For a
    description of the other products and services covered by the cooperative agreement, see
    Appendix B.

    Administration and Management of the Agreement. A NASA engineer from the ISS
    National Lab Office conducted biweekly telephone conference calls with BioServe officials
    to review the status of hardware and flight experiments, integration and operation issues,
    and other technical items. In addition, the ISS Program Research Integration Office
    conducts monthly and quarterly technical, cost, and schedule reviews with BioServe that
    include in-depth discussions and data highlighting planned versus actual cost reporting and
    technical issues.

    At the beginning of each fiscal year, BioServe provides a plan for spending the allocated
    budget. Each month, NASA extracts the actual amount paid to BioServe from NASA’s


2                                                                              REPORT NO. IG-14-028
INTRODUCTION



   financial system and compares it to the approved budget. NASA requires BioServe to explain
   any variations that exceed 5 percent. Additionally, NASA conducts hardware and safety
   reviews of the University’s flight experiments. The BioServe Director, who also serves as the
   Principal Investigator (PI), has primary responsibility for achieving technical success and
   complying with the financial and administrative policies and regulations associated with the
   award.
   Project Management. NASA manages most Agency space flight programs and projects by
   imposing a series of key decision points designed to keep programs and projects on schedule,
   control costs, and monitor performance. To move to the next stage of development, a project
   must pass a review at each of these decision points. The Agency describes this process in
   NASA Procedural Requirements (NPR) 7120.5E, “NASA Space Flight Program and Project
   Management Requirements.” However, for a variety of reasons NASA has not required ISS
   payload developers, such as BioServe, to comply with all aspects of the NPR. First, payload
   developers typically do not have the workforce to support all of the successive reviews at each
   key decision point, as prescribed by the NPR, and requiring them to increase staff to do so
   would significantly increase NASA’s costs. Second, NASA does not consider the payloads
   they produce to be mission critical and therefore the payloads need not meet the same standards
   of reliability and maintainability as systems required for the health and safety of astronauts.
   Rather than strict adherence to the NPR, NASA chooses specific key decision points for these
   projects based on their level of complexity.
   Pursuant to the cooperative agreement, the key milestones applicable to the bio lab and the
   multi-well projects are the Preliminary Design and Critical Design reviews. According to NPR
   7120.5E, the Preliminary Design Review evaluates the completeness and consistency of a
   project’s preliminary design in meeting all requirements with appropriate margins, acceptable
   risk, and within cost and schedule constraints, and determines readiness to proceed with the
   detailed design phase. Critical Design Review determines if the integrated design is
   appropriately mature to proceed to final design and fabrication. Both the bio lab and multi-well
   projects passed a Preliminary Design Review in September 2012 and April 2013, respectively.
   The Critical Design Review for the projects is scheduled for August 2014. In addition, NASA
   plans to perform a System Acceptance Review for the bio lab project in February 2015.9

Objectives
   The objective of this audit was to determine whether BioServe used cooperative agreement
   funds for their intended purpose and whether the costs that the University claimed were
   allowable, reasonable, and in accordance with applicable laws, regulations, guidelines, and
   terms and conditions of the cooperative agreement. We also reviewed internal controls
   related to the administration and management of the cooperative agreement. See Appendix
   A for details of the audit’s scope and methodology, our review of internal controls, and a list
   of prior coverage.

   9
       According to NPR 7120.5E, the purpose of a System Acceptance Review is to evaluate whether a
       specific end item is sufficiently mature to be shipped from the supplier to the designated operational
       facility or launch site.



REPORT NO. IG-14-028                                                                                            3
                                                                                                             RESULTS




                                THE BIO LAB AND MULTI-WELL PROJECTS ARE
                                         OVER BUDGET AND OVER SCHEDULE

               BioServe requires an additional $520,000 (about 36 percent) more than its approved
               budget to complete development, delivery, integration, operations, and launch of the
               bio lab units, and $75,000 (15 percent) more for the multi-well plates.10 In addition,
               current project plans have BioServe delivering the products 16 and 10 months,
               respectively, beyond the original schedule. These cost overruns and delays occurred
               because BioServe and NASA underestimated the complexity of the development effort
               and failed to identify all technical requirements when negotiating the cooperative
               agreement and because BioServe did not track and compare actual expenditures to
               approved project budgets. In our judgment, BioServe and NASA need to better
               identify and price technical requirements and account for project costs. Failure to
               address these concerns increases the risk of additional cost and schedule overruns in
               the existing cooperative agreement and any future agreements with the University.

BioServe’s Proposals Underestimated Expenditures and
   Overpromised on Delivery Dates

    BioServe will require $595,000 and 16 months in addition to what the University
    proposed and NASA approved to complete the bio lab and multi-well projects. From
    inception of the cooperative agreement through December 31, 2013, BioServe spent
    $3,571,653, or essentially all but $6,000 of the total funds NASA had obligated to the
    cooperative agreement.

    The Bio Lab Unit. BioServe was originally approved to spend $1.45 million for the bio
    lab project, but will now require an additional $520,000 and 16 additional months to
    complete the work. The PI cited three reasons BioServe did not meet the planned budget
    and schedule: (1) the original proposal did not include actual manifesting or integration
    and operations associated with deployment on a specific flight, (2) costs increased due to
    unanticipated loss of personnel, and (3) BioServe’s proposal underestimated the effort
    needed to complete development.11




    10
         BioServe requires an additional $220,000 more than its approved budget to complete the originally
         proposed development and delivery of the bio lab units. In addition, BioServe later proposed and NASA
         approved an additional $300,000 to complete the required integration and operations and launch of the
         bio lab unit to the ISS.
    11
         Flight implementation means completing all of the requisite steps (paperwork, process, physical
         integration, operations planning, and mission execution) to fly, install, and operate a piece of hardware
         on the ISS.



4                                                                                            REPORT NO. IG-14-028
RESULTS



   The Multi-well Plate. BioServe was originally approved to spend $500,000 on the
   multi-well project, but will now require about $75,000 more than and an additional 10
   months to complete the work. According to the PI, BioServe prepared the proposal for
   the project in the fall of 2012 with limited knowledge of requirements associated with
   two key pieces of equipment on the ISS – the Microgravity Science Glovebox and the
   Disposable Glove Bag, both of which help to prevent liquids and particles used in
   experiments from floating about the cabin.12 In addition, fabrication and materials
   selection have proven more costly than BioServe anticipated.

   For their part, Johnson Space Center (Johnson) ISS Program officials stated that both
   NASA and BioServe contributed to the agreement’s cost growth and schedule delays.
   They indicated NASA added requirements for an on-orbit validation flight for both pieces
   of hardware, increasing the cost of the hardware. Further, the ISS Program officials
   stated schedule delays on the bio lab and multi-well projects were also attributable to the
   Agency’s direction to BioServe to give work on a rodent research flight project higher
   priority. Additionally, they expressed the view that the development of hardware for
   operation in the harsh environment of space is inherently complex and therefore
   uncertainties that result in cost and schedule growth are sometimes unavoidable.

   Way Forward. In June 2014, NASA and the University of Colorado approved a plan
   pursuant to which BioServe will receive $595,000 in additional funding from NASA and
   complete the bio lab and multi-well projects by January 2015. NASA contends that the
   Agency and BioServe now understand the effort needed to complete the projects and
   anticipate BioServe will meet the revised budget and schedule. As noted earlier, NASA
   has chosen to apply only selective tenets of NPR 7120.5E to BioServe’s development
   effort. We acknowledge that imposing all of the life cycle milestones found in the NPR
   on relatively low-dollar development projects such as these may be impractical.
   However, we, the Government Accountability Office (GAO), and others have repeatedly
   reported on the cost and schedule risks associated with projects that proceed to
   implementation with unproven technologies, inadequate funding, or unstable
   requirements.13 In our judgment, the cost increases and schedule delays experienced by
   BioServe follow a similar pattern.




   12
        The Microgravity Science Glovebox – one of the major dedicated science facilities inside the ISS’s
        Destiny module – has a large front window and built-in gloves to provide a sealed environment for
        conducting science and technology experiments. The Disposable Glove Bag is an unpressurized
        enclosure that keeps liquids and particles from escaping into the cabin.
   13
        NASA Office of Inspector General (OIG), “NASA’s Challenges to Meeting Cost, Schedule, and
        Performance Goals” (IG-12-021, September 27, 2012).



REPORT NO. IG-14-028                                                                                         5
                                                                                                        RESULTS



NASA Approved BioServe’s Proposed Costs with No Changes
  despite Noted Weaknesses

    NASA approved the proposed costs submitted by BioServe for the basic cooperative
    agreement and eight modifications with no changes. For example, NASA approved the
    bio lab proposal without any changes even though Agency evaluators noted several
    weaknesses in BioServe’s proposal and the Agency held post-evaluation discussions with
    BioServe concerning these weaknesses. Specifically, with regard to BioServe’s proposal
    for the bio lab, evaluators noted that (1) total cost was lower than anticipated for three
    flight units, (2) it was not clear if total cost included launch of the units and any initial
    on-orbit check, and (3) operations and payload integration costs were not provided.
    Although the Agency’s concerns regarding these weaknesses may have been alleviated
    during the post-evaluation discussions, in our judgment, NASA and BioServe should
    have identified and negotiated all relevant payload costs associated with developing,
    integrating, launching, and operating the bio lab and multi-well plates on board the ISS
    National Lab.

NASA Cannot Measure How Well BioServe Performed Against
  Approved Project Budgets

    NASA and BioServe negotiated separate budgets for the basic cooperative agreement and
    each subsequent modification. However, BioServe has not separately tracked and
    reported expenditures against the approved budgets as required by governing Federal
    regulations. Specifically, the Code of Federal Regulations require recipients of Federal
    funds to maintain financial management systems that provide for (1) accurate, current,
    and complete disclosure of the financial results of each Federally sponsored project and
    (2) comparison of outlays with budget amounts for each award.14 While BioServe
    worked on a number of separate projects, it charged all expenses to a single overall
    cooperative agreement number. As a result, BioServe and NASA cannot accurately
    measure how well BioServe performed against each approved project budget or whether
    budget overruns were attributable to the bio lab and multi-well projects or to other
    projects completed under the cooperative agreement.

    BioServe acknowledged the University of Colorado’s accounting system has the
    capability to accumulate, track, and report expenditures for each BioServe project, and
    both BioServe and NASA agreed that such project cost accounting would provide greater
    visibility into the reasons for the cost overruns.




    14
         Title 2, Code of Federal Regulations Part 215.21, “Uniform Administrative Requirements for Grants and
         Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations”
         (Office of Management and Budget [OMB] Circular A-110).



6                                                                                       REPORT NO. IG-14-028
RESULTS



Conclusion

   According to the University, BioServe has a long history of providing NASA with
   valuable hardware and payload integration and operations support that enable scientific
   research and experiments conducted during space flight and onboard the ISS. In
   addition, NASA and BioServe have considerable experience working with the technical
   requirements and costs associated with providing hardware and payload support to
   conduct research in space. However, in our judgment, additional efforts are required to
   better identify and price technical requirements in the early stage of hardware
   development and track and compare actual expenditures to approved project budgets in
   order to avoid cost and schedule overruns.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
   We recommended the Associate Administrator for Human Exploration and Operations in
   coordination with the Assistant Administrator for Procurement:

   Recommendation 1. Ensure NASA and BioServe better identify and understand
   technical requirements when negotiating the cooperative agreement and the Agency
   improves its process of evaluating BioServe’s proposed costs so that approved project
   budgets better approximate actual expenditures.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, agreeing to implement a process change that will ensure budget and
      schedule reserve for future projects is identified at the outset. According to the
      Associate Administrator, this change will allow for fine-tuning of requirements or
      recovery from anomalies that occur during the development process and for
      evaluation of any requirements changes to understand their impact on cost and
      schedule before proceeding. Although the Associate Administrator expects to
      implement this process change by August 2014, full implementation is contingent
      upon receipt of a follow-on proposal from the recipient, the timing of which is
      currently unknown.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and we will close it upon verification and
      completion of the proposed corrective actions.




REPORT NO. IG-14-028                                                                         7
                                                                                       RESULTS



    Recommendation 2. Require that, for all future awards, BioServe separately account for
    and report expenditures incurred for each project.

       Management’s Response. The Associate Administrator concurred with our
       recommendation, stating that BioServe and the University of Colorado Boulder’s
       Office of Contracts and Grants have already agreed to institute separate accounting on
       a project basis. Consequently, NASA requested closure of this recommendation upon
       issuance of the final report.

       Evaluation of Management’s Response. Management’s comments are responsive.
       We confirmed the University of Colorado Boulder’s Office of Contracts and Grants
       has implemented separate project accounting which will allow BioServe and NASA
       to track and compare project costs to related project budgets in order to avoid cost
       and schedule overruns. Therefore, we have closed this recommendation.

    Recommendation 3. Monitor actual performance against the cost and schedule
    milestones NASA and BioServe negotiated for the remaining deliverables on the bio lab
    and multi-well projects to minimize the risk of further cost and schedule overruns.

       Management’s Response. The Associate Administrator concurred with our
       recommendation, stating NASA will continue monitoring BioServe’s performance
       during regular Technical, Cost, and Schedule Reviews. In addition, having BioServe
       separately track costs associated with each project will enhance NASA’s ability to
       provide oversight. This activity is ongoing through the expiration of the current
       agreement on March 31, 2015.

       Evaluation of Management’s Response. Management’s comments are responsive;
       therefore, the recommendation is resolved and we will close it upon verification and
       completion of the proposed corrective actions.




8                                                                         REPORT NO. IG-14-028
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

   We performed this audit from January 2014 through July 2014, in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   Our overall objective was to determine whether BioServe used NASA’s cooperative
   agreement funds for their intended purpose and whether the costs claimed were
   allowable, reasonable, and in accordance with applicable laws, regulations, guidelines,
   and terms and conditions of the cooperative agreement. We also reviewed internal
   controls as they relate to the administration and management of the cooperative
   agreement.

   On January 14, 2014, we sent an audit announcement letter to the Regents of the
   University of Colorado advising them of our audit objectives, information requirements,
   and desire to visit their offices in Boulder, Colorado. On January 30, 2014, we held an
   entrance conference with Johnson ISS technical monitors, procurement support officers,
   and others with an interest in our audit. From February 10 – 14, 2014, we met in Boulder
   with BioServe and University of Colorado staff. We judgmentally selected the
   cooperative agreement awarded to BioServe for substantive testing based on the award
   dollar value, the number of supplements awarded, and the fact that it was a cooperative
   agreement awarded to an educational institution. In addition, we selected the BioServe
   cooperative agreement for audit because the NASA ISS team that made the award is
   located at Johnson and we had familiarity with BioServe from a previous audit of the ISS.

   We identified and reviewed relevant public laws, the Code of Federal Regulations, OMB
   circulars, NASA policy, and applicable University of Colorado policy and guidance.
   Specifically, we reviewed:

         Public Law 95-224, “Federal Grant and Cooperative Act of 1977,” February 3,
          1978
         Public Law 109-155, “NASA Authorization Act of 2005,” December 30, 2005
         Title 2, Code of Federal Regulations, Part 215.21, “Uniform Administrative
          Requirements for Grants and Agreements with Institutions of Higher Education,
          Hospitals, and Other Non-Profit Organizations” (OMB Circular A-110), January
          1, 2012



REPORT NO. IG-14-028                                                                           9
                                                                                        APPENDIX A



           Title 14, Code of Federal Regulations, Part 1260, “Aeronautics and Space,
            ‘National Aeronautics and Space Administration,’ ‘Grants and Cooperative
            Agreements,’” January 1, 1999
           OMB Circular A-21, “Cost Principles for Educational Institutions” (including the
            Cost Accounting Standards), August 31, 2005
           OMB Circular A-133, “Audits of Institutions of Higher Education and Other
            Non-Profit Institutions,” June 26, 2007
           NPR 7120.5E, “NASA Space Flight Program and Project Management
            Requirements,” August 14, 2012
           University of Colorado, “University of Colorado at Boulder Departmental
            Financial Management Guide, Chapter 14-Sponsored Projects Accounting,”
            September 2013

     We interviewed NASA technical and procurement personnel and the BioServe PI about
     BioServe’s need for additional funding to complete work on the bio lab and multi-well
     projects. We also worked with personnel assigned to the University of Colorado’s
     Sponsored Projects Accounting Department and its Office of Contracts and Grants to
     obtain documents and conduct detailed testing of selected cooperative agreement
     expenditure transactions.
     In addition to the interviews, we obtained and reviewed relevant documents, including:
        1. Background information on BioServe and the projects funded with NASA
           cooperative agreement funds;
        2. NASA’s process for managing BioServe’s cost, technical, and schedule performance;
        3. Official cooperative agreement budgets approved by NASA;
        4. Detailed accounting records for expenditures charged to the cooperative agreement;
        5. Quarterly financial status reports and drawdown requests;
        6. Indirect and fringe benefit rates used for the cooperative agreement; and,
        7. State of Colorado Statewide Single Audits (A-133 reports) for fiscal years 2010,
           2011, and 2012.
     We used judgmental sampling to determine if funds were being spent for their intended
     purposes and costs were allowable. Specifically, we selected 5 of the 72 payments made to
     BioServe ranging from $78,557 to $526,313 for the period November 19, 2010, through
     January 8, 2014. From the 5 payments, we chose 49 transactions totaling $300,749 for
     detailed review and evaluated whether the expenditures were properly recorded and
     allowable under the laws and terms of the cooperative agreement. Our review included
     tracing the expenditures through BioServe’s accounting records to the supporting source
     documents.




10                                                                            REPORT NO. IG-14-028
APPENDIX A



   Use of Computer-Processed Data. We used computer-processed data from the
   Department of Health and Human Services Payment Management System to obtain
   cooperative agreement drawdown and expenditure data for BioServe. Additionally, we
   used computer-processed data extracted from the University of Colorado at Boulder’s
   accounting system to determine the expenditure transactions charged to the cooperative
   agreement. Although we did not independently verify the reliability of all this
   information, we compared it with other available supporting documents to determine data
   consistency and reasonableness. From these efforts, we believe the information we
   obtained is sufficiently reliable for this report.

Review of Internal Controls

   We reviewed the University of Colorado at Boulder Departmental Financial
   Management Guide, Chapter 14-Sponsored Projects Accounting policies regarding
   responsibilities for managing a sponsored project. Specifically, the University’s policy
   requires a PI, with assistance from administrative staff, establish a means to ensure that:

      1. No more than the amount authorized by the sponsor for the project period is
         spent;
      2. Sponsor limitations on the amount of money that may be spent in any single
         budget category is adhered to;
      3. Costs are incurred only for goods or services that will be received and used during
         the project period;
      4. Only those expenditures that are reasonable and necessary to accomplish the
         project objectives, and that are also consistent with the terms and conditions of the
         sponsor, are authorized; and,
      5. Fiscal stewardship is maintained over the sponsored project ensuring the
         reasonable and prudent use of sponsor funds.

   The control weaknesses that we identified are discussed in this report. Our
   recommendations, if implemented, will correct the identified control weaknesses.




REPORT NO. IG-14-028                                                                             11
                                                                                   APPENDIX A



Prior Coverage

     During the last 5 years, the NASA OIG and the GAO have issued ten reports of particular
     relevance to the subject of this report.15 Unrestricted reports can be accessed at
     http://oig.nasa.gov/audits/reports/FY14/index (NASA OIG) and http://www.gao.gov
     (GAO).

     NASA Office of Inspector General

     “Audit of Grant Awarded to North Carolina State University” (IG-14-027, July 23, 2014)

     “Audit of NASA’s Cooperative Agreement Awarded to Rockwell Collins” (IG-14-025,
     July 14, 2014)

     “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
     September 27, 2012)

     “Audit of NASA Grant Awarded to HudsonAlpha Institute for Biotechnology”
     (IG-12-019, August 3, 2012)

     “Audit of NASA Grants Awarded to the Philadelphia College Opportunity Resources for
     Education” (IG-12-018, July 26, 2012)

     “Audit of NASA Grants Awarded to the Alabama Space Science Exhibit Commission’s
     U.S. Space and Rocket Center” (IG-12-016, June 22, 2012)

     “NASA’s Use of Research Announcement Awards for Aeronautics Research”
     (IG-12-011, April 30, 2012)

     “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011)

     “Audit of NASA’s Recovery Act Procurement Actions at Johnson Space Center,
     Goddard Space Flight Center, Langley Research Center, and Ames Research Center”
     (IG-10-017, July 27, 2010)

     Government Accountability Office

     “Implementation of Grants Policies Needs Better Oversight” (GAO-14-635, July 21,
     2014)

     “Improving the Timeliness of Grant Closeouts by Federal Agencies and Other Grants
     Management Challenges” (GAO-12-704T, July 25, 2012)



     15
          Three of the GAO reports listed are testimonies.



12                                                                       REPORT NO. IG-14-028
APPENDIX A



   “Federal Grants: Improvements Needed in Oversight and Accountability Processes”
   (GAO-11-773T, June 23, 2011)

   “Agencies Face Challenges in Tracking Contracts, Grants, Cooperative Agreements, and
   Associated Personnel” (GAO-10-509T, March 23, 2010)

   “Department of Education Could Improve Its Processes with Greater Focus on Assessing
   Risks, Acquiring Financial Skills, and Sharing Information” (GAO-10-57,
   November 19, 2009)




REPORT NO. IG-14-028                                                                      13
                                                                                                     APPENDIX B




                                                                   PRODUCTS AND SERVICES
                                                                         PROVIDED BY THE
                                                                  COOPERATIVE AGREEMENT

     Through February 2014, Johnson and BioServe modified the basic agreement 13 times.16
     In addition to performing research on the Jatropha plant and developing the bio lab and
     multi-well projects, BioServe provided a variety of payload integration and operations
     services to enable research on the ISS National Lab.

     Modification 3. Commercial Generic Bioprocessing Apparatus Science Insert-05 – A
     science experiment involving K-12 classrooms via the internet. BioServe designed
     hardware that housed spiders, fruit flies, and seed germination experiments, as well as
     provided integration and operations for the flight on Space Transportation System
     (STS) -134.

     Modification 4. Advanced Integration and Operations in Support of Commercial
     Biotechnology Flight Research on STS-135 – In collaboration with five external
     corporations, agencies, institutions, and universities, BioServe designed and conducted a
     rodent (mouse) research experiment (Commercial Biomedical Testing Module-03) and
     worked with a PI at Arizona State University on a second experiment (Recombinant
     Attenuated Salmonella Vaccine), both on board STS-135. In addition, BioServe provided
     services of payload integration, safety, mission planning, payload verification, and flight
     certification, as well as payload operations.

     Modification 5. An Augmentation Proposal for Cooperative Agreement
     #NNJ10GA25A – BioServe supported a NASA research experiment (Shear History
     Extensional Rheology Experiment II) by utilizing one of its Commercial Generic
     Bioprocessing Apparatus assets currently on board the ISS for thermal conditioning of
     the experiment sample sets.

     Modification 8. Supplement to NNJ10GA25A; Commercial Generic Bioprocessing
     Apparatus Science Insert-06 Support – A science experiment involving K-12 classrooms
     via the internet. BioServe designed hardware that housed experiments with pavement
     ants, which launched on the Orbital-1 mission and was conducted onboard the ISS.




     16
          Modifications 1, 2, 7, 9, and 13 were administrative modifications made to deobligate or reobligate
          funds, extend periods of performance, and update NASA points of contact and did not require BioServe
          provide products or services.



14                                                                                       REPORT NO. IG-14-028
APPENDIX B



   Modification 10. Supplement to NNJ10GA25A: YouTube Space Lab Support – To
   complete analysis of bacteria samples from the YouTube Space Lab Experiment
   conducted on board the ISS in summer 2012.

   Modification 11. Modification of BioServe Commercial Generic Bioprocessing
   Apparatus Fleet Hardware to Operate as Rear-Breathing Transportation Payload on ISS
   Cargo Resupply Services Vehicles – BioServe modified the Commercial Generic
   Bioprocessing Apparatus to operate as rear-breathing transportation on ISS cargo
   resupply services vehicles.




REPORT NO. IG-14-028                                                                     15
                      APPENDIX C




     MANAGEMENT COMMENTS




16            REPORT NO. IG-14-028
APPENDIX C




REPORT NO. IG-14-028   17
                                                                              APPENDIX D




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Associate Administrator
     Chief of Staff
     Associate Administrator for Human Exploration and Operations
     Assistant Administrator for Procurement

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management
     University of Colorado at Boulder

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




18                                                                    REPORT NO. IG-14-028
Major Contributors to the Report:
      Ridge Bowman, Director, Space Operations Directorate
      Kenneth Sidney, Project Manager
      Ellis Lee, Lead Auditor
      Gene Bauer, Auditor
      Cedric Campbell, Associate Counsel to the Inspector General – Central Region
      Sarah McGrath, Editor




REPORT NO. IG-14-028                                                                 19
                                                                                  AUGUST 4, 2014
                                                                    REPORT NO. IG-14-028




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
